No. 19-6
IN THE

Supreme Court of the United States
>>>>

THE STATE

OF

NEW YORK,
Petitioner,

v.

JAHMARLEY JONES,
Respondent.
On Petition for a Writ of Certiorari to
the Supreme Court of the State of New York
Appellate Division, Second Department

REPLY BRIEF FOR PETITIONER

October 15, 2019

JOHN M. RYAN
ACTING DISTRICT ATTORNEY
QUEENS COUNTY
JOHN M. CASTELLANO
Counsel of Record
ROBERT J. MASTERS
JOSEPH N. FERDENZI
CHRISTOPHER BLIRA-KOESSLER
ASSISTANT DISTRICT ATTORNEYS
Attorneys for Petitioner
125-01 Queens Boulevard
Kew Gardens, New York 11415
718-286-5801
jmcastellano@queensda.org

i
TABLE OF CONTENTS
Page No.
I.

THE
ISSUE
PRESENTED
BY
PETITIONER IS REVIEWABLE. . . . . . . . . . 1

II.

THE
ISSUE
PRESENTED
BY
PETITIONER IS
WORTHY OF
REVIEW. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8

CONCLUSION. . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11

ii
TABLE OF AUTHORITIES
Page No.
Cases
Coleman v. Thompson, 501 U.S. 722 (1991). . . . . . . 1
Crawford v. Washington, 541 U.S. 36 (2004).. . . . . . 1
Delaware v. Van Arsdall, 475 U.S. 673 (1986).. . . . . 4
Florida v. Powell, 559 U.S. 50 (2010). . . . . . . . . . . . . 3
Fry v. Pliler, 551 U.S. 112 (2007) . . . . . . . . . . . . 3n.1
Hensley v. Roden, 755 F.3d 724 (1st Cir. 2014) . 5n.2
Maryland v. Garrison, 480 U.S. 79 (1987). . . . . . . . . 4
Maryland v. King, 567 U.S. 1301 (2012). . . . . . . . . . 5
Michigan v. Long, 463 U.S. 1032 (1983). . . . 1, 2, 3, 4
Minnesota v. National Tea Co., 309 U.S. 551
(1940). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1, 4
Mountain View Coach Lines, Inc. v. Storms,
102 A.D.2d 663 (1984). . . . . . . . . . . . . . . . 5n.3
New York v. Class, 475 U.S. 106 (1986). . . . . . . . . . . 4
New York v. P.J. Video, Inc., 475 U.S. 868
(1986). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
People v. Campbell, 174 A.D.3d 916
(2d Dept. 2019). . . . . . . . . . . . . . . . . . . . . . 5n.3
People v. Cato, 174 A.D.3d 918 (2d Dept. 2019).. 5n.3
People v. Inoa, 25 N.Y.3d 466 (2015). . . . . . . . . . . . . 2

iii
People v. Turner, 5 N.Y.3d 476 (2005) .. . . . . . . . 5n.3

Stuart v. Alabama, __ U.S. __,
139 S. Ct. 36 (2018) .. . . . . . . . . . . . . . . . . . . 9
United States v. Shue, 766 F.2d 1122
(7th Cir. 1985) . . . . . . . . . . . . . . . . . . . . . . 3n.1
Williams v. Illinois, 567 U.S. 50 (2012). . . . 7, 8, 9, 10
Other Authorities
3A C. Wright, Federal Practice and Procedure
§ 856, at 342 (1982). . . . . . . . . . . . . . . . . . 3n.1
Finelli, Slash, Shoot, Kill: Gang
Recruitment of Children and the
Penalties Gangs Face, 57
Fam. Ct. Rev. 243 (2019). . . . . . . . . . . . . . . . . 6
J. Langbein, Prosecuting Crime in the
Renaissance 90 (1974) . . . . . . . . . . . . . . . . . . . 7
J. Stephen, A History of the Criminal Law
of England 217–218 (1883) . . . . . . . . . . . . . . . 7
Nakashima, Ellen: DHS: Domestic
terrorism, particularly
white-supremacist violence, as big
a threat as ISIS, al-Qaeda,
The Washington Post, 29
September 2019 . . . . . . . . . . . . . . . . . . . . . . . 10

1
I.

The issue presented by petitioner is
reviewable.

Respondent claims that the issue presented for
review in this petition is not reviewable because there
was a separate and independent state ground for
reversal. Respondent is incorrect because the state
court never made a “plain statement” (Michigan v.
Long, 463 U.S. 1032, 1042 [1983]) that it was relying
upon an independent state law ground.
“This Court will not review a question of federal
law decided by a state court if the decision ... rests on
a state law ground that is independent of the federal
question and adequate to support the judgment.”
Coleman v. Thompson, 501 U.S. 722, 729 (1991). When
“a state court decision fairly appears to rest primarily
on federal law, or to be interwoven with the federal
law, and when the adequacy and independence of any
possible state law ground is not clear from the face of
the opinion,” this Court “will accept as the most
reasonable explanation that the state court decided the
case the way it did because it believed that federal law
required it to do so.” Long, 463 U.S. at 1040–41.
“[A]mbiguous or obscure adjudications by state courts
do not stand as barriers to a determination by this
Court of the validity under the federal constitution of
state action.” Minnesota v. National Tea Co., 309 U.S.
551, 557 (1940).
Here, the state court asserted, “[C]ontrary to the
People's contention, information derived from the
debriefing of arrested S.N.O.W. Gang members
constitutes testimonial statements within the meaning
of” Crawford v. Washington, 541 U.S. 36 (2004). The
state court also asserted, “Separate and apart from the
Crawford errors, Georg’s testimony also ran afoul of
the proscription against police experts acting as
summation witnesses, straying from their proper
function of aiding the jury in its fact-finding, and
instead instructing the jury on the existence of the
facts needed to satisfy the elements of the charged

2
offense . . . .” (A. 4a-6a, citing People v. Inoa, 25 N.Y.3d
466 [2015]). The court concluded by stating, “As a
result of the Crawford violation and the Inoa error, a
new trial must be ordered because the evidence of the
defendant's guilt, without reference to the errors, was
far from overwhelming” (A. 6a) (emphasis added).
While respondent contends that the Inoa issue
constitutes a separate and independent ground for the
state court decision, the state court gave no indication
that the Inoa issue, standing alone, would have led to
reversal. Rather, the state court asserted that it was
reversing based upon the cumulative effect of both the
Crawford and Inoa issues. Specifically, the state court
asserted, “As a result of the Crawford violation and the
Inoa error, a new trial must be ordered because the
evidence of the defendant's guilt, without reference to
the errors, was far from overwhelming” (A. 6a)
(emphasis added). In other words, the only “plain
statement” from the state court was that the Inoa issue
was inextricably intertwined with the Crawford issue,
and that both issues prompted the reversal. But there
is no “plain statement” that the Inoa issue, standing
alone and apart from the alleged Crawford error, was
of such singular importance that it demanded reversal
in and of itself. Thus, given that the state court
decision does not indicate “clearly and expressly that it
is alternatively based on bona fide separate, adequate,
and independent [state] grounds” (Long, 463 U.S. at
1041), this Court may review the issues raised by
petitioner.
In any event, the state court decision contains
clear indications that it was rooted in federal,
constitutional law, rather than state law. For example,
the state court made a “plain statement” that it was
relying upon Crawford when it concluded that
“information derived from the debriefing of arrested
S.N.O.W. Gang members constitutes testimonial
statements” (A. 4a). Notably, there was no “plain
statement” from the state court that Crawford was
“being used only for the purpose of guidance,” and did

3
not “compel the result that the court has reached.”
Long, 463 U.S. at 1041. And, importantly, the state
court did not state – with a “plain statement” – that it
was providing defendant with a broader degree of
protection under the Sixth Amendment of the New
York State Constitution than is required under
Crawford and the Sixth Amendment to the
Constitution of the United States, such that it could be
concluded that the state court decision is beyond this
Court’s scrutiny. See Florida v. Powell, 559 U.S. 50, 57
(2010); Long, 463 U.S. at 1044. Since the state court
opinion was predicated upon its interpretation of
Crawford, there exists a pure question of federal law
which this Court may review.
A fair reading of the state court opinion permits
the conclusion that the Crawford ground formed the
primary basis for reversal. First, the alleged Crawford
error was the first issue that the state court reached,
indicating that the state court deemed this issue the
most pressing ground for reversal. By contrast, the
Inoa issue was mentioned second, indicating that it
was a subsidiary error. Second, the state court devoted
the lion’s share of its opinion to the Crawford ground,
rather than the Inoa ground. This further
demonstrates that the state court assigned greater
importance to the alleged Crawford error, rather than
the alleged Inoa error. And, third, the state court
asserted that the Inoa issue, unlike the Crawford
issue, was “nonconstitutional” (A. 6a). It is well-settled
that non-constitutional errors are less serious, and
assessed under a more “forgiving” standard,1 than
constitutional errors. Thus, it is reasonable to conclude
that the non-constitutional Inoa issue played a lesser
1

See Fry v. Pliler, 551 U.S. 112, 116 (2007) (describing
different standards of harmless-error review for constitutional and
non-constitutional errors); United States v. Shue, 766 F.2d 1122,
1132 (7th Cir. 1985) (“Errors of constitutional dimension, such as
the due process violation here, are more freely noticed than are
less serious, non-constitutional errors”) (citing 3A C. Wright,
Federal Practice and Procedure § 856, at 342 [1982]).

4
role in the reversal than the constitutional Crawford
issue.
Further, the portion of the state court decision
which relied upon Inoa does not constitute a separate
and independent state ground for reversal because
Inoa relies primarily upon federal law. Indeed, in
discussing the proper parameters of expert testimony,
Inoa cites Crawford, as well as several federal circuit
court decisions. And, in reaching its decision, the state
court explicitly cited not just to Inoa, but federal law as
well (A. 5a-6a).
At best, it is fair to conclude that the Inoa issue
is “interwoven with the federal law.” Long, 463 U.S.
1032, 1040–1041. But the portion of the decision which
mentions Inoa does not possess the clarity needed to
conclude that the state court resolved this issue
exclusively on state law grounds. Indeed, a “plain
statement” to this effect might have demonstrated
which body of law – state or federal – was primarily
relied upon by the state court in reaching its decision.
Without such a “plain statement,” however, the
reference to Inoa in the state court decision does not
preclude review by this Court. See National Tea Co.,
309 U.S. at 557.
It is well-settled that mixed references to state
and federal law in a state court decision do not divest
this Court of jurisdiction. Indeed, this Court has often
reviewed such cases where there is no “plain
statement” that there is a separate and independent
state ground for the decision. See, e.g., Maryland v.
Garrison, 480 U.S. 79, 83–84 (1987); New York v. P.J.
Video, Inc., 475 U.S. 868, 872 n. 4 (1986); Delaware v.
Van Arsdall, 475 U.S. 673, 678 n. 3 (1986); New York
v. Class, 475 U.S. 106, 109-10 (1986); Long, 463 U.S. at
1043–44. The same conclusion is warranted by this
case.

5
II.

The issue presented by petitioner is
worthy of review.

In the original petition, petitioner demonstrated
that the issue in this case has engendered
disagreement both among the Justices of this Court,
and among courts nationwide. That issue is whether
statements gathered before the occurrence of a crime,
or the identification of a suspect, qualify as testimonial
under Crawford. This issue extends not just to gang
experts and their testimony, but any expert at all who
testifies at trial, as well as autopsy reports.2
Indeed, the state court decision is one that
“implicates an important feature of day-to-day law
enforcement practice” across the nation, and will have
“direct effects” beyond New York. See Maryland v.
King, 567 U.S. 1301, 133 S. Ct. 1, 3 (2012). As it
stands, the instant decision is the primary New York
State appellate court decision holding that statements
garnered by the police during “debriefings” are
testimonial and, thus, under New York State law, this
decision is binding on all trial-level courts.3 The

2

See, e.g., Hensley v. Roden, 755 F.3d 724, 733-34 (1st Cir.
2014) (collecting cases illustrating the wide-spread confusion on
the question of whether autopsy reports are testimonial or not).
3

The same state appellate court that reversed the conviction in
this case used the instant case as the basis for reversing the
convictions of two of Jones’ co-defendants (People v. Campbell, 174
A.D.3d 916 [2d Dept. 2019], People v. Cato, 174 A.D.3d 918 [2d
Dept. 2019]), and on the very same grounds. Further, the New
York Court of Appeals refused to review the instant case (A. 1a).
This means that the instant state court decision is, essentially,
black-letter New York law, at least as far as the application of
Crawford to gang-expert testimony is concerned. See, e.g., People
v. Turner, 5 N.Y.3d 476, 482 (2005) (citing Mountain View Coach
Lines, Inc. v. Storms, 102 A.D.2d 663, 664). In effect, by reversing
three convictions based upon the same misinterpretation of
Crawford, the state court has thrice underscored and emphasized
that its approach to Crawford issues is the dispositive metric by
which trial judges across New York must assess the scope and

6
decision only adds to the national confusion regarding
the proper application of Williams. Moreover, given the
authoritative standing of the instant case as far as
New York jurisprudence is concerned, as well as the
lack of further direction from this Court, or the New
York Court of Appeals, on whether a crime, and/or a
suspect, are needed before a statement may be deemed
testimonial, the decision at the heart of this petition
may be used as persuasive authority by other state
courts in deciding similar issues.
Moreover, criminal gangs often have a national
reach, a reach that is fostered by the use of social
media, such as the Facebook accounts in this case by
which the gang members communicated. Indeed,
“Many experts have theorized that social media
applications such as YouTube, Facebook, and Twitter
have overtaken television and ‘gangster rap’ as the
most significant sources of gang culture juveniles have
today.” Finelli, Slash, Shoot, Kill: Gang Recruitment of
Children and the Penalties Gangs Face, 57 Fam. Ct.
Rev. 243, 247 (2019). Additionally, “Most gangs today
are constantly posting violent or gang-related videos to
YouTube and have their own criminal street gang
Facebook pages.” Id. These social media sources give,
for example, a gang “the ability to control many of its
local groups and thus develop in regions with no
previous gang problems or even neighboring troubles.”
Id. Consequently, disrupting the ability of law
enforcement to successfully prosecute criminal gangs
in New York, or any state for that matter, will only
allow these criminal organizations to strengthen, grow,
and extend their influence beyond state lines.
Moreover, the prevalence of social media as a means by
which gangs organize and communicate will, no doubt,
increase the need for gang experts at trial to aid fact
finders in understanding the vernacular that gang
members use. Thus, it is imperative that this Court
decide, once and for all, the proper scope of expert
propriety of gang expert testimony.

7
testimony as far as Crawford and Williams are
concerned.
While Justice Thomas, in his concurrence in
Williams, rejected the notion of a “targeting test,” the
historical examples he gave, as well as the overall facts
of Williams, demonstrate that the issue presented by
petitioner is not limited to whether law enforcement
has a targeted individual in mind when eliciting a
statement. In Williams, the police were investigating
a rape; the crime, in other words, had already occurred
once law enforcement sought the help of a laboratory
to generate a DNA profile of the culprit. In his
concurrence, Justice Thomas stated:
Historical practice confirms that a
declarant could become a “witnes[s]”
before the accused's identity was known.
As previously noted, the confrontation
right was a response to ex parte
e x a mi na t i on s o f w i t n e s s e s i n
16th-century England. Such
examinations often occurred after an
accused was arrested or bound over for
trial, but some examinations occurred
while the accused remained “unknown or
fugitive.” J. Langbein, Prosecuting Crime
in the Renaissance 90 (1974) (describing
examples, including the deposition of a
victim who was swindled out of 20
shillings by a “ ‘cunning man’ ”); see also
1 J. Stephen, A History of the Criminal
Law of England 217–218 (1883)
(describing the sworn examinations of
witnesses by coroners, who were charged
with investigating suspicious deaths by
asking local citizens if they knew “who
[was] culpable either of the act or of the
force”
Williams v. Illinois, 567 U.S. 50, 115 (2012) (Thomas,
J.). Notably, each scenario – the facts of Williams,

8
Justice Thomas’ example of the theft of “20 shillings,”
as well as his example of a coroner’s investigation – all
bear one thing in common: an investigation into an
actual crime that had already been committed.
That was not the case here. The murder of
SNOW-Gang member Khalil Bowlin, and the resulting
conspiracy to murder his perceived killers, had not yet
come to pass at the time Officers Bracero and Georg
debriefed members of the SNOW Gang. These
debriefings, in other words, targeted no specific
individual, and no specific crime. Thus, this case
presents not only a scenario where there was no
targeted individual at the time the relevant statements
were taken, but another scenario entirely unaddressed
by this Court in Williams or any other case: whether
statements taken during routine, preliminary
investigations, which are solely geared towards
establishing whether there is criminal activity to begin
with, are testimonial in nature. Given that face-to-face
communication between law enforcement and everyday
citizens is one of the main ways in which the police
gather intelligence, there can be no serious dispute
that this question has a staggering, nationwide reach,
and demands this Court’s immediate attention.
Four justices in Williams dissented, and rejected
both the “targeted” suspect test, as well as Justice
Thomas’ “solemnity” metric for evaluating whether
statements are testimonial or not. Indeed, one Justice
went so far as to call the Williams plurality decision,
“[T]o be frank—who knows what.” Williams, 567 U.S.
at 141 (Kagan, J. dissenting). The words of the dissent
were prescient, as the divergent opinions expressed in
Williams have plainly led to confusion regarding the
proper application of Crawford to a variety of cases
from around the country (see Petition, pp. 13-16, 1819).
This confusion was recently recognized by a twoJustice dissent from the denial of a petition for
certiorari:

9
To be fair, the problem appears to be
largely of our creation. This Court's most
recent foray in this field, Williams v.
Illinois . . . . yielded no majority and its
various opinions have sown confusion in
courts across the country.
Stuart v. Alabama, __ U.S. __, 139 S. Ct. 36 (2018)
(Gorsuch, J., and Sotomayor, J.).
The two-Justice dissent ended with a call for
this Court to confront the Confrontation-Clause
conundrums that Crawford and Williams have
spawned:
[W]e owe lower courts struggling to abide
our holdings more clarity than we have
afforded them in this area. Williams
imposes on courts with crowded dockets
the job of trying to distill holdings on two
separate and important issues from four
competing opinions. The errors here may
be manifest, but they are understandable
and they affect courts across the country
in cases that regularly recur. I would
grant review.
Stuart, 139 S. Ct. at 37.
Respondent’s response essentially ignores this
confusion, and pretends that the law is settled.
Such a choice is, of course, also available to this
Court, but, to be both “fair” (Stuart, supra) and “frank”
(Williams, 567 U.S. at 141 [Kagan, J.]), this Court
should not leave the law in limbo any longer. Every
investigation that law enforcement conducts – from
those focused on a local street gang, to those focused on

10
domestic terrorist threats,4 as well as terrorism on an
international scale – will involve statements much like
those collected here. On both a state and federal level,
the police, prosecutors, defense attorneys and courts
are in need of guidance as to where such statements
stand under Crawford. See, e.g., Williams, 567 U.S. at
92 (Breyer, J.) (“Obviously, judges, prosecutors, and
defense lawyers have to know, in as definitive a form
as possible, what the Constitution requires so that they
can try their cases accordingly.”).

4

According to the Department of Homeland Security, the threat
of domestic terrorism now equals the danger posed by
international terrorism. See, e.g., Nakashima, Ellen: DHS:
Domestic terrorism, particularly white-supremacist violence, as big
a threat as ISIS, al-Qaeda, The Washington Post, 29 September
2 0 1 9
( a v a i l a b l e
a t
https://www.washingtonpost.com/national-security/domestic-ter
ror--particularly-white-supremacist-violence--as-big-a-threat-asisis-al-qaeda-dhs-says/2019/09/20/dff8aa4e-dbad-11e9-bfb1-8498
87369476_story.html).

11
CONCLUSION
The one thing clear at this point is that the road
that began with Crawford has now forked: one
pathway requires a crime and/or a suspect for a
statement to be deemed testimonial, the other does not.
Which path must the courts of this country take? Or,
does the road fork three ways, the third path being
that of “solemnity”? Is that the proper path? Only this
Court can say. This Court should, thus, grant the
instant petition.
Respectfully submitted,

JOHN M. RYAN
Acting District Attorney,
Queens County
*JOHN M. CASTELLANO
ROBERT J. MASTERS
JOSEPH N. FERDENZI
CHRISTOPHER BLIRA-KOESSLER
Assistant District Attorneys
* Counsel of Record
October 15, 2019

